No. 20-1768
IN THE SUPREME COURT OF THE UNITED STATES
RON FENN,
Petitioner,
v.

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Police Chief, LEE
ALIREZ, and DANIEL HICKS,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Mark D. Standridge, being duly sworn according to law and being over
the age of 18, upon my oath depose and say that:
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
field by Respondents City of Truth or Consequences, Michael Apodaca, and Police
Chief Lee Alirez contains 8,353 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,
/s/ Mark D. Standridge
Mark D. Standridge
Jarmie & Rogers, P.C.
2540 El Paseo Road, Suite D
Las Cruces, NM 88001
(575) 288-1453
mstandridge@jarmielaw.com
Counsel for Respondents City of Truth or
Consequences, Lee Alirez, and Michael
Apodaca

